                              NATIONAL SCIENCE FOllNDATlON
                                              4201 WILSON BOULEVARD
                                             ARLINGTON. VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



  MEMORANDUM

 DATE:                  October 12, 1995
     ..                      ..., r.. .....
                                            ........                ...-..   ..................................   .._.


 TO:                    Case # I95080028

 FROM:




              -
 THROUGH:

 RE:                    Allegation h,at-         Head of DAS Publication Services,
                        was Awarding Printing Contracts to Personal Friends and Former
                        NSF Employees



                                                       r ,
 This investigation was reopened on Septsmber 5, 1995, when our office received a second
 anonymous allegation claiming that             Head of NSF's Division of Administrative
 Services @AS) Publication Services Section, was issuing former co-workers and fiiends,
 specifically                 printing contracts.

 We obtained and reviewed all -awards.-                               once employed at NSF
 fiom 1988 to 1989 as a permanent, part-time Desktop Publications Specialist, was
 awarded five contracts for computer graphic design work. All of the contracts were
 awarded during 1994 and 1995, approximately five to six years afier-
 employment with NSF. Our investigation disclosed that            an-           are personal
 friends. However, based on interviews with the                        DAS employees, we
 determined that th; award-received            were not influenced by her fiendship with
         It is clear that-did           violate any conflict of interest rules as set forth in
        .C.$207.
 Of these awards, three were sole-source contracts (no competition because the award
 amount was under $5,000) and two were
 However, one-      was canceled after
             necessary signatures fiom
                       b- r
             solicitation,
            -authorizing        payment.
                                        --
             agreement.' The documentation in           contracts was complete and contained the
                                                head of the composition unit, authorizing the bid
                                         contracting officer in DAS, authorizing the award, and


             In addition, we i n t e r v i e w e d , and six current employees and one former
             employee from the Publication Services section. These interviews served to corroborate
             that          was awarded contracts well after she had left NSF and that      was not
    I
                        technical contracting officer w a s ) .

            Due to the lack of substantial evidence, firther investigation is not warranted at this time.
-   -   -   This case &-dosed           -
                                       .-    --  -.-                                  - - - --    -- - - - -   - - ---
